U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT

      JUDGMENT FUNDS AWARDED
   TO THE PAPAGO TRIBE OF ARIZONA

            REPORT NO. 9744169
              SEPTEMBER 1997
             United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                   Washington, D.C. 20240




MEMORANDUM
                                                               SEP 2   9 ~937
TO ..

FROM:


SUBJECT SUMMARY:            Final Audit Report for Your Information - “Judgment Funds
                            Awarded to the Papago Tribe of Arizona” (No. 97-I-l169)

Attached for your information is a copy of the subject final audit report. The objective of
the audit was to determine whether: (1) the Bureau of Indian Affairs distributed judgment
award funds in accordance with plans or legislation authorizing the use of such funds and
(2) the Tohono O’odham Nation used judgment award funds for the purposes specified in
Public Law 97-408.

We concluded that the Bureau of Indian Affairs inappropriately distributed to the Tohono
O’odham Nation about $5.8 million in judgment award principal ($1 million) and interest
and investment income ($4.8 million) that was earned on the judgment award funds.
However, we could not determine the specific purposes for which the Nation spent
judgment award funds because the Nation did not separately account for these funds.

The improper distributions occurred because Bureau personnel did not ensure that
distributions were made in accordance with Public Law 97-408 requirements. In addition,
the Bureau’s trust fund management systems did not have sufficient automated controls to
restrict distributions from accounts that should have been held in trust and invested.

As a result of the improper distributions, we estimated, using investment interest yield
information obtained from the Office of Trust Funds Management, that the Nation lost
about $1.2 million in interest and investment income because the $5 8 million was not held
                                                                   l




in trust and invested as required by Public Law 97-408.
In its response, the Special Trustee for American Indians agreed with one of the report’s
two recommendations but did not indicate agreement or disagreement with the remaining
recommendation. Based on the response, we considered one recommendation resolved but
not implemented and requested a response for one recommendation, which was
unresolved.

If you have any questions concerning this matter, please contact me at (202) 2085745 or
Mr. Robert J. Williams, Assistant Inspector General for Audits, at (202) 208-4252.


Attachment
                                                                     C-IN-BIA-008-96(D)


             United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                    Washington, DC. 20240

                                                                    SEP I 5 l997



                                 AUDIT REPORT
Memorandum

To ..    Special Trustee for American Indians

From:    Robert J. Williams
         Assistant Inspector

Subject: Audit Report on Judgment Funds Awarded to the Papago Tribe of Arizona
         0i 0. 97-l3169j

                                INTRODUCTION
This report presents the results of our audit of judgment funds awarded to the Papago
Tribe of Arizona (currently known as the Tohono O’odham Nation). This report is the
last of four audit reports that we plan to issue on judgment funds awarded to Indian tribes.
The objective of the audit was to determine whether: (1) the Bureau of Indian Affairs
distributed judgment award funds in accordance with plans or legislation authorizing the
use of such funds and (2) the Tohono O’odham Nation used judgment award funds for the
purposes specified in Public Law 97-408.

BACKGROUND
On July 21, 1976, the Indian Claims Commission approved a settlement award of
$26 million on behalf of the Papago Tribe in Dockets 102 and 345. The award was
compensation for 6.3 million acres of aboriginal tribal lands that were taken by the United
States and compensation for a general accounting claim. Funds to cover the award were
appropriated on September 30, 1976.

Public Law 97-408, which was enacted on January 3, 1983, provided for the use and
distribution of judgment funds awarded to the Papago Tribe and three other tribes.
Section 8 of the Public Law required that funds appropriated to satisfy the judgment award
to the Papago Tribe, less attorneys’ fees and litigation expenses but including all accrued
interest or investment income, be used and distributed as follows:
       Fifty per centum of such funds shall be held in trust by the Secretary for
       the benefit of the Papago Tribe and shall be administered or invested by the
       Secretary for the best interest of the tribe under existing law. . . . All
       interest or investment income accruing to said funds shall be available . . .
       for expenditures of the tribal government, and for health, education, and
       social services, capital improvements and economic development
       programs. . . . Fifty per centum of such funds shall be held and
       administered by the Secretary for per capita distribution and such sums,
       together with any accrued interest or investment income, shall be
       distributed. . . .

The Secretary of the Interior has been designated as the trustee of funds held in trust by
the Government for the benefit of Indian tribes and individual Indians. The Secretary’s
authority for the management of trust funds was delegated to the Assistant Secretary for
Indian Affairs in the Departmental Manual (109 DM 8) and was redelegated to the
Bureau’s Phoenix Area Director in the Bureau of Indian Affairs Manual (10 BIAM,
Bulletin 13). Since 1989, the Bureau’s Office of Trust Funds Management was
responsible for overseeing some of the financial trust service functions, which included
collecting, investing, distributing, and accounting for the trust funds. However, on
February 9, 1996, Secretarial Order No. 3 197 was issued to establish the Office of the
Special Trustee for American Indians and to transfer the Bureau’s Offke of Trust Funds
Management and other financial trust service functions to the Office of the Special
Trustee.

From 1983 through 1995, the Bureau distributed to the Nation about $1 million in
principal and about $24.6 million in interest and investment income accrued on the 50
percent portion of judgment award funds that was designated for the Nation’s
administration and programs. Of that amount, the Bureau distributed about $1 million in
principal and about $4.7 million of interest income in fiscal years 1993 through 1995. In
addition, from 1983 through 1990, the Bureau distributed about $27.1 million in per capita
payments to tribal members, which was in accordance with Public Law 97408.

SCOPE OF AUDIT
Our audit was conducted during September 1996 through February 1997 and included site
visits to the Office of Trust Funds Management in Albuquerque, New Mexico, and the
Bureau of Indian Affairs Papago Agency and the Tohono O’odham Nation offices in Sells,
Arizona. We also contacted Bureau and Office of Trust Funds Management personnel
who were located at the Bureau’s Phoenix Area Office. Our audit focused on funds that
were distributed to the Nation for administration and program purposes during fiscal years
1993 through 1995. However, in some instances, we found it necessary to expand the
scope of our audit to cover prior year distributions to meet our audit objective. The focus
of our audit was on account disbursements and balances that occurred during fiscal years
1993 through 1995. Therefore, we did not review the Bureau’s distribution of per capita
payments or the accounting of these funds because the Bureau completed the requirement

                                            2
to distribute the judgment award funds that had been reserved for per capita payments in
1990. Our audit was conducted in accordance with the “Government Auditing Standards,”
issued by the Comptroller General of the United States. Accordingly, we included such
tests of records and other auditing procedures that were considered necessary under the
circumstances.

We also reviewed the Secretary’s Annual Statement and Report to the President and the
Congress, which is required by the Federal Managers’ Financial Integrity Act, for fiscal
years 1993 through 1995 and determined that the Secretary reported material weaknesses
in the management of tribal trust funds. The fiscal year 1995 report stated that the
Bureau’s management of trust funds “lacks effective management controls, dependable
systems, and reliable management information” and that “tribal and individual accounts
lack credibility and have never been reconciled in the entire history of the trust fund.”

PRIOR AUDIT COVERAGE
Neither the Off& of Inspector General nor the General Accounting Office has issued an
audit report in the past 5 years concerning judgment funds awarded to the Tohono
O’odham Nation. Further, the last single audit of the Nation, which was for the fiscal
year ended September 30, 1992, did not identify any adverse conditions related to the
judgment award funds.

                             RESULTS OF AUDIT
We concluded that the Bureau of Indian Affairs inappropriately distributed to the Tohono
O’odham Nation about $5.8 million in judgment award principal ($1 million) and interest
and investment income ($4.8 million) that was earned on the judgment award funds.
However, we could not determine the specific purposes for which the Nation spent
judgment award funds because the Nation did not separately account for these funds.

Public Law 97408 specified that attorneys’ fees and litigation expenses related to Dockets
102 and 345 were to be deducted from the amount appropriated. In addition, Section 8(b)
of Public Law 97-408 specified that 50 percent of the net amount of funds appropriated
plus 50 percent of the interest and investment income accrued on the funds that were
invested from October 7, 1976 (the date the appropriation was received), to January 3,
1983 (the effective date of Public Law 97-408), were to be held in trust and invested.
Further, Section 8(b)(l) of the Public Law stated that all of the interest and investment
income accrued on the invested funds was to be available for the Nation to spend on tribal
government; health, education, and social services; capital improvements; and economic
development programs.

Based on these requirements, we determined that the $26 million of judgment award funds
appropriated less attorneys’ fees of $2.6 million and litigation expenses of $3,493 resulted
in a net award amount of $23.4 million. In addition, about $22 million in interest and
investment income was earned on the $23.4 million from October 7, 1976, through

                                             3
January 3, 1983, for total judgment award funds of $45.4 million. Fifty percent of the
total amount, or about $22.7 million (consisting of about $11.7 million of principal and
about $11 million of interest), was to be held in trust and invested. The interest and
investment income earned was to be available for programs of the Nation as specified in
the Act.

Distribution of Funds
The Bureau made excess distributions to the Nation of $5.8 million from judgment award
fund principal ($1 million) and interest ($4.8 million) accounts in fiscal years 1984, 1987,
and 1989 through 1995 as follows:

    - On January 6, 1995, the Bureau inadvertently distributed $1 million to the Nation
from the escrow account for the Tohono O’odham water lease contract rather than from
the interest account related to Dockets 102 and 345. In May 1995, the Nation’s Chairman
requested that the Bureau transfer $1 million from the interest account to the water lease
                                                        However, on June 12, 1995, the
Bureau incorrectly transferred funds from the principal account instead of the interest
account. We also noted that the interest account balance was below the minimum level of
$11 million required by the Act. As such, a transfer from that account would also have
been improper.

    - Based on our review of account balances, we found that the Bureau periodically
distributed to the Nation more funds than were earned in the interest account in fiscal years
1984, 1987, and 1989 through 1995, which decreased the interest account balance below
the required level of $11 million. On September 30, 1995, the interest account balance
was approximately $6.2 million, or $4.8 million below the minimum level. The Nation
had requested and the Phoenix Area Director authorized the excess distributions from the
interest account.

The improper distributions occurred because Bureau personnel did not ensure that
distributions were made in accordance with Public Law 97408 requirements. In addition,
the Bureau’s trust fund management systems did not have sufficient automated controls to
restrict distributions from accounts that should have been held in trust and invested.

As a result of the improper distributions, we estimated, using investment interest yield
information obtained from the Office of Trust Funds Management, that the Nation lost
about $1.2 million in interest and investment income because the $5.8 million was not held
in trust and invested as required by Public Law 97408. Consequently, the Nation did not
earn interest income on the $5.8 million to fund tribal administration, services, and
programs.




to request the $1 million transfer.
As required by the American Indian Trust Fund Management Reform Act of 1994, the
Secretary issued a report in December 1996 that proposed settlement options to resolve
disputed tribal trust fund account balances. This report identified the “general approach”
the Secretary was contemplating for resolving disputed account balances and included
specific recommendations to resolve known errors. This report also stated that the
Department of the Interior expects to further solicit tribal views on various settlement
options and plans before finalizing recommendations for resolving disputed tribal trust
fund account balances.

Fund Expenses
Although the Tohono O’odham Nation deposited judgment award funds relative to
Dockets 102 and 345 into its general account, which included revenues generated from the
Nation’s enterprises and other sources, some expenditures from the general account,
including judgment award funds, were not accounted for by revenue source. As a result,
we could not determine which expenditures related to judgment award funds. However,
based on our review of general ledger reports for fiscal years 1993 through 1995 for this
account, we found that monies were spent for tribal administration and education and for
social service, health, economic development, and capital improvement programs.
Although we could not reconcile these expenditures to the judgment award funds, the uses
of funds in the general account appeared to be in conformance with the broad uses
authorized by Public Law 97-408.

Recommendations

We recommend that the Special Trustee for American Indians:

     1. Ensure that the principal and interest accounts for Dockets 102 and 345 are credited
with $1 million and $4.8 million, respectively, and that the appropriate amount of interest
income which was lost because of the improper distributions of principal and interest is
credited to the respective accounts. These actions should be addressed in Secretary’s final
settlement process for resolving tribal trust fund account balances.

   2. Direct the Office of Trust Funds Management to develop and implement automated
controls to prevent judgment award funds that are to be held in trust from being distributed
improperly.

Office of the Special Trustee for American Indians Response and Office
of Inspector General Reply

In the July 30, 1997, response (Appendix 1) from the Office of the Special Trustee for
American Indians, the Office stated that “both recommendations are justified and self
evident. ” Nevertheless, the Office did not indicate concurrence or nonconcurrence with
Recommendation 1 and indicated concurrence with Recommendation 2. Based on the
As required by the American Indian Trust Fund Management Reform Act of 1994, the
Secretary issued a report in December 1996 that proposed settlement options to resolve
disputed tribal trust fund account balances. This report identified the “general approach”
the Secretary was contemplating for resolving disputed account balances and included
specific recommendations to resolve known errors. This report also stated that the
Department of the Interior expects to further solicit tribal views on various settlement
options and plans before finalizing recommendations for resolving disputed tribal trust
fund account balances.

Fund Expenses
Although the Tohono O’odham Nation deposited judgment award funds relative to
Dockets 102 and 345 into its general account, which included revenues generated from the
Nation’s enterprises and other sources, some expenditures from the general account,
including judgment award funds, were not accounted for by revenue source. As a result,
we could not determine which expenditures related to judgment award funds. However,
based on our review of general ledger reports for fiscal years 1993 through 1995 for this
account, we found that monies were spent for tribal administration and education and for
social service, health, economic development, and capital improvement programs.
Although we could not reconcile these expenditures to the judgment award funds, the uses
of funds in the general account appeared to be in conformance with the broad uses
authorized by Public Law 97-408.

Recommendations

We recommend that the Special Trustee for American Indians:

     1. Ensure that the principal and interest accounts for Dockets 102 and 345 are credited
with $1 million and $4.8 million, respectively, and that the appropriate amount of interest
income which was lost because of the improper distributions of principal and interest is
credited to the respective accounts. These actions should be addressed in Secretary’s final
settlement process for resolving tribal trust fund account balances.

   2. Direct the Office of Trust Funds Management to develop and implement automated
controls to prevent judgment award funds that are to be held in trust from being distributed
improperly.

Office of the Special Trustee for American Indians Response and Office
of Inspector General Reply

In the July 30, 1997, response (Appendix 1) from the Office of the Special Trustee for
American Indians, the Office stated that “both recommendations are justified and self
evident. ” Nevertheless, the Office did not indicate concurrence or nonconcurrence with
Recommendation 1 and indicated concurrence with Recommendation 2. Based on the

                                             5
response, the Office of the Special Trustee is requested to reconsider its response to
Recommendation 1, which is unresolved, and to provide additional information for
Recommendation 2 (see Appendix 2).

Recommendation 1. Concurrence/nonconcurrence not indicated.

    Special Trustee for American Indians Response. The Office of the Special Trustee
said that the last sentence of the recommendation in the draft report (“These actions should
be taken in accordance with the Bureau Manual and with the Secretary’s final
recommendations for resolving disputed account balances”) “may not be totally accurate”
and suggested that it read as follows: “Any adjustments to correct improperly distributed
judgement award funds will be addressed in the Secretary’s final Settlement process for
resolving tribal trust fund account balances. ”

    Offke of Inspector General Reply. We have revised Recommendation 1 accordingly,
and we request that the Office of the Special Trustee respond to the revised
recommendation (see Appendix 2)     l




Recommendation 2. Concurrence indicated.

    Special Trustee for American Indians Response. The Offke of the Special Trustee
stated that the Office of Trust Funds Management instituted a review process to “ensure
the disbursement request is in compliance with the public law, ” that it had developed
procedures to place administrative holds on judgment award fund accounts to prevent
distributions below a certain amount, and that Customer Relations Specialists are initiating
holds on accounts to prevent distributions below a certain amount.

   Office of Inspector General Reply. We acknowledge that the Offke of the Special
Trustee has taken actions to control trust fund disbursements. However, the Office did
not indicate whether administrative holds had been placed on the Tohono O’odham Nation
accounts for Dockets 102 and 345. As such, we are requesting that the Office provide the
information requested in Appendix 2.

Additional Comments on Audit Report

Regarding the distribution of judgment funds, the Office of the Special Trustee stated:

       Your draft audit report identifies two reasons why these funds were
       mistakenly distributed to the Nation and your recommendations address
       only the second. Left unaddressed is the failure of responsible personnel to
       ensure that the requirements of the applicable statute were met. That falls,
       we believe, into the area of a lack of management controls. Such controls
       include, but are not limited to, a requirement that individual staff members
       receive suffkient supervision and are given honest and objective
       performance reviews which result in appropriate personnel actions. . . .

                                             6
       Many of the recommendations this Off& has made in the Strategic Plan to
       correct the management of Indian trust assets will require the expenditure
       of new funds. However, the effective supervision of staff is expected and
       will cost the government no additional money. We believe that the final
       audit report should make additional and more specific recommendations
       concerning the proper supervision of staff including a process for
       disciplinary action against those officials who violated, or allowed the
       violation, of existing law.

The Office further stated:

            we assume that your office has a procedure where by you can assure
       yourself and the Secretary that your recommendations to correct weakness
       are implemented . . . and that you have a procedure . . . by which you are
       able to determine that the appropriate corrections remain in effect.

Regarding supervision and employee accountability, we agree that they are key elements
of an effective program. However, the scope of our audit did not include a review of the
trust fund management system or organization. Therefore, because we did not determine
whether distribution errors resulted from staffing deficiencies, training inadequacies, or
automated accounting system weaknesses, we did not make a specific recommendation in
that regard. At the time of the audit, we did not believe it was appropriate to conduct such
a review because: (1) the inadequate management of trust funds has been a material
weakness of the Department since 1983; (2) the accounting for and controls over tribal and
individual Indian monies and other special trust funds are currently audited by a certified
public accounting firm; and (3) the Office of the Special Trustee has developed a strategic
plan to correct the long-standing problems in trust management systems. Furthermore,
in a July 11, 1997, memorandum to the Secretary regarding strategic plan alternatives, the
Office of the Special Trustee addressed the causes of mismanagement, which included
“trade-offs” of fmancial and managerial resources between trust management activities and
other activities of the Government, ineffective organization of the Bureau of Indian
Affairs, and lack of competent managerial resources to manage the trust management
responsibilities effectively and efficiently. Regarding Bureau managers and staff, the letter
states that they:

            have virtually no effective knowledge or practical experience with the
       type of trust management policies, procedures, systems and best practices
       which are so effective, efficient and prevalent in private sector trust
       departments and companies. The BIA [Bureau of Indian Affairs] area and
       field office managers do not have the background, the training, the
       experience, and the fmncial and trust qualifications and skills, necessary
       to manage the Federal Government’s trust management activities. . . .
       Thus, through no fault of their own . . . they are not capable of managing
       effectively and efficiently the Federal Government’s trust management
       activities on par with that provided by private sector institutions to their
       trust customers.

Consequently, we believe that the Office of the Special Trustee has already acted on the
issue of staff supervision as part of its overall strategic plan.

Regarding implementation of audit rer=ommendations, this matter is a shared responsibility
between managers and the Office of Inspector General. The Departmental Manual (361
DM 1 S) states that the Assistant Secretary for Policy, Management and Budget is
responsible for tracking “the implementation of actions agreed to be taken in a
management decision through final action. ” The Manual also states that bureau and office
heads are responsible for identifying officials responsible for implementing agreed-upon
recommendations and providing target dates and that Program Assistant Secretaries are
responsible for ensuring that “corrective actions agreed to be taken in a management
decision are actually taken. ” Additionally, the Manual states that the Office of Inspector
General “periodically evaluates the effectiveness of the audit followup systems and
conducts followup audits to ensure that actions reported by management as complete are,
in fact, complete. ”

In accordance with the Departmental Manual (360 DM 5.3), we are requesting your
written response to this report by October 24, 1997. The response should provide the
information requested in Appendix 2.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all reports issued, the monetary impact of audit findings,
actions taken to implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.

We appreciate the assistance of personnel from the Office of the Special Trustee for
American Indians and the Tohono O’odham Nation in the conduct of our audit.
                                                                                                   APPENDIX 1
                                                                                                   Page 1 of 3


                            United States Department of the Interior
                            OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                                Washington. D.C. 20240

    Paul M. Homan                                                                         Telephone: (202) 208-4866
    Special Trustee                                                                       Fax:       (202) 208-7545
     for American Indians
                                                             Ju,   30    IQW

         Memorandum

         To ..      Robert J. Williams
                    Assistant Inspector General for Audits
                    Office of Inspector

         From:      Paul M. Homan
                    Special Trustee for

         Subject: Draft Audit Report on Judgement Funds Award.ed to the Papago Tribe of Arizona
                  (Assignment No. C-IN-BIA-008-96(D))

         This will respond to your memorandum dated June 17, 1997 concerning the above referenced
         draft audit report. As requested, we have reviewed the draft report and offer the suggestions set
         out below.

         The results of your audit indicate that the Bureau of Indian Affairs inappropriately made
         excessive distributions to the Papago Tribe of Arizona (currently known as the Tohono O’odharn
         Nation) of $5.8 million from the judgement award fund cited in the draft audit report in fiscal
         year 1984,1987, and 1989 through 1995. The $5.8 million was made up of $1 million in
         principal and $4.8 million in interest.
-- -_
         Your draft report attributes these improper distributions to two causes; first, BIA personnel did
         not ensure that the distributions were made in accordance with the requirements of the applicable
         statute, Public Law 97-400 and second, the Bureau’s trust fund management systems did not
         have sufficient automated controls to restrict distributions from accounts that should have been
         held in trust and invested. These are serious and fundamental failures on the part of the trustee to
         discharge its fiduciary responsibilities to the beneficiaries of this particular account and have
         exposed the Federal Government to significant liability with respect to this judgement award.

         Your draft report makes two recommendations:

        1. Ensure that the principal and interest accounts for Dockets 102 and 345 are credited with $1
        million and $4.8 million, respectively, and that the appropriate amount of interest income which
        was lost because of the improper distributions of principal and interest is credited to the
        respective accounts. These actions should be taken in accordance with the Secretary’s final
        recommendations for resolving disputed account balances.
                                                                                                APPENDIX 1
                                                                                                Page 2 of 3




     2. Direct the Office of Trust Funds Management to develop and implement automated controls
     to prevent judgement awards funds that are to be held in trust from being distributed improperly.

     We believe it is important to make two points for your records.

     First: The last sentence in recommendation 1 above may not be totally accurate. Perhaps it
     should read “Any adjustments to correct improperly distributed judgement award funds will be
     addressed in the Secretary’s final settlement process for resolving tribal trust fund account
     balances.”

     Second: It should be noted that this audit exception occurred prior to OEM having authority for
     tribal disbursements. Since that time, the OTFM has undergone significant organizational
     changes. The American Indian Trust Fund Management Reform Act of 1994 established this
     Office. Subsequently and as noted in the draft report, the Secretary of the Interior by Secretarial
     Order 3 197, dated February 9, 1996 transferred line authority for both Headquarters and Field
     staff and administrative authority for disbursements from the Bureau of Indian Affairs to this
     Office. OTFM now has an ongoing project that is updating and standardizing policy and
     procedures. The following procedures have been put in place:

     1. The disbursement procedures involve a review process to ensure the disbursement request is
         in compliance with the public law. There are two levels of compliance checks: one at the
         Area Level by the Area Trust Account and one at the OTFM Headquarters Office by the
         Customer Relations Specialists.

     2. An additional control in the OMNI Trust System is the administrative hold that can be placed
        on the corpus to prevent distribution below a certain amount. Currently, the Customer
        Relations Specialists are initiating appropriate holds as the accounts are reviewed.

--   In generaLwe believe that both recommendations are justified and self evident. However, they
     do not address all of the specific deficiencies noted in your draft report.

     You observe in the draft report that the Secretary’s Annual Statement and Report to the President
     and Congress for fiscal year 1995, a report required to be made by the Federal Managers’
     Financial Integrity Act, stated that the Bureau’s management of trust funds “lacks effective
     management controls, dependable systems, and reliable management information.” These
     conditions have been known to the Federal Government for many years and remain largely
     uncorrected.

     Your draft audit report identifies two reasons why these funds were mistakenly distributea to the
     Nation and your recommendations address only the second. Left unaddressed is the failure of
     responsible personnel to ensure that the requirements of the applicable statute were met. That
     falls. we believe. into the area of a lack of management controls. Such controls include, but are
     not limited to, a requirement that individual staff members receive sufficient supervision and are
     given honest and objective performance reviews which result in appropriate personnel actions.
     Failures of this sort which expose the government to significant monetary loss should not go
     unnoticed and uncorrected.


                                                        10
                                                                                                APPENDIX 1
                                                                                                Page 3 of 3



       Many of the recommendations this Office has made in the Strategic Plan to correct 2~
       management of Indian trust assets will require the expenditure of new funds. However, the
       effective supervision of staff is expected and will cost the government no additimz ; Imnev. We
       believe that the final audit report should make additional and more specific recommendations
       concerning the proper supervision of staff including a process for disciplinary action against
       those officials who violated, or allowed the violation, of existing law.

       As the Department’s internal auditor we assume that your office has a procedure where by you
       can assure yourself and the Secreti that your recorkmendations to correct weakness are
       implemented in such a way as to correct the identified deficiencies properly. We also assume
       that you have a procedure, as do most internal auditors, by which you are able to determine that
       the appropriate corrections remain in effect.




-- -




                                                            11
                                                                  APPENDIX 2



       STATUS OF AUDIT REPORT RECOl.MMENDATIONS


    Finding/
Recommendation
   Reference            Status                     Action Required

      1          Unresolved.            Respond to the revised
                                        recommendation, and provide a plan
                                        that identifies actions to be taken,
                                        including a target date and title of the
                                        official responsible for implementation.

                 Management concurs;    Provide a target date for placing
                 additional             administrative holds on the Tohono
                 information needed.    O’odham Nation accounts for Dockets
                                        102 and 345.




                                   12
                                        .




                        Within the Continental United States

    U.S. Department of the Interior                       Our 24.hour
r   Office of Inspector General                           Telephone HOTLINE
    1849 C Street, NW.                                    l-800-424-5081 or
    Mail Stop 5341                                        (202) 208-5300
    Washington, DC. 20240


                                                          TDD for hearing impaired
                                                          (202) 208-2420 or
                                                          l-800-354-0996


                       Outside the Continental United States


                                      Caribbean Redon

    U.S. Department of the Interior                       (703) 235-9221
    Office of Inspector General
    Eastern Division - Investigations
    1550 Wilson Bouievard
    Suite 410
    Arlington, Virginia 22209


                                   North Pacific Region

    U.S. Department of the Interior                       (700) 550-7428 or
    Office of Inspector General                           COMA4 9-O11-671-472-7279
    North Pacific Region
    238 Archbishop F.C. Flares Street
    Suite 807, PDN Building
    Agana, Guam 96910
Toll Free Numbers:
 1-800-424-5081
 TDD l-800-354-0996

FTSKommercial Numbers:
 (202) 208-5300
 TDD (202) 208-2420



1849 C Street, N.W.
Mail stop 5341
